No.
IN THE SUPREME COURT OF THE UNITED STATES

MERRICK B. GARLAND, ATTORNEY GENERAL,
ET AL., PETITIONERS
v.
LEYMIS CAROLINA VELASQUEZ, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage prepaid, this 1st
day of July 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document 1,851 words, excluding the parts
of the document that are exempted by Supreme Court Rule 33.1(d). I declare under penalty of perjury
that the foregoing is true and correct. Executed on July 1, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2218

July 1, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management Specialist, Office
of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2218. Thank you for your
consideration of this request.

SERVICE LIST: GARLAND V. VELASQUEZ, ET AL.

David L. Wilson
dwilson@wilsonlg.com
Brittany S. Bakken
bbakken@wilsonlg.com
Kelsey J. Friberg
kfriberg@wilsonlg.com
Wilson Law Group
3019 Minnehaha Avenue, Suite 200
Minneapolis, Minnesota 55406
(612) 436-7100

